<html>
<title> - [H.A.S.C. No. 111-41]TERRORISM AND THE NEW AGE OF IRREGULAR WARFARE: CHALLENGES AND OPPORTUNITIES</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



                         [H.A.S.C. No. 111-41]

    TERRORISM AND THE NEW AGE OF IRREGULAR WARFARE: CHALLENGES AND 
                             OPPORTUNITIES

                               __________

                                HEARING

                               BEFORE THE

    TERRORISM, UNCONVENTIONAL THREATS AND CAPABILITIES SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             APRIL 2, 2009

                                     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                  U.S. GOVERNMENT PRINTING OFFICE
57-695                   WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001









    TERRORISM, UNCONVENTIONAL THREATS AND CAPABILITIES SUBCOMMITTEE

                    ADAM SMITH, Washington, Chairman
MIKE McINTYRE, North Carolina        JEFF MILLER, Florida
ROBERT ANDREWS, New Jersey           FRANK A. LoBIONDO, New Jersey
JAMES R. LANGEVIN, Rhode Island      JOHN KLINE, Minnesota
JIM COOPER, Tennessee                BILL SHUSTER, Pennsylvania
JIM MARSHALL, Georgia                K. MICHAEL CONAWAY, Texas
BRAD ELLSWORTH, Indiana              THOMAS J. ROONEY, Florida
PATRICK J. MURPHY, Pennsylvania      MAC THORNBERRY, Texas
BOBBY BRIGHT, Alabama
                 Bill Natter, Professional Staff Member
               Alex Kugajevsky, Professional Staff Member
                     Andrew Tabler, Staff Assistant











                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2009

                                                                   Page

Hearing:

Thursday, April 2, 2009, Terrorism and the New Age of Irregular 
  Warfare: Challenges and Opportunities..........................     1

Appendix:

Thursday, April 2, 2009..........................................    27
                              ----------                              

                        THURSDAY, APRIL 2, 2009
    TERRORISM AND THE NEW AGE OF IRREGULAR WARFARE: CHALLENGES AND 
                             OPPORTUNITIES
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Miller, Hon. Jeff, a Representative from Florida, Ranking Member, 
  Terrorism, Unconventional Threats and Capabilities Subcommittee     1
Smith, Hon. Adam, a Representative from Washington, Chairman, 
  Terrorism, Unconventional Threats and Capabilities Subcommittee     5

                               WITNESSES

Alexander, Bevin, Adjunct Professor, Longwood University.........     2
Dreifus, Henry N., Founder and CEO, Dreifus Associates, Ltd., 
  Inc............................................................     3
Hartung, William D., Director, Arms and Security Initiative, New 
  America Foundation.............................................     7
Robb, John, Warfare Theorist, Author.............................     5

                                APPENDIX

Prepared Statements:

    Alexander, Bevin.............................................    34
    Dreifus, Henry N.............................................    42
    Hartung, William D...........................................    52
    Miller, Hon. Jeff............................................    32
    Robb, John...................................................    48
    Smith, Hon. Adam.............................................    31

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]

 
    TERRORISM AND THE NEW AGE OF IRREGULAR WARFARE: CHALLENGES AND 
                             OPPORTUNITIES

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
        Terrorism, Unconventional Threats and Capabilities 
                                              Subcommittee,
                           Washington, DC, Thursday, April 2, 2009.
    The subcommittee met, pursuant to call, at 3:35 p.m., in 
room 2118, Rayburn House Office Building, Hon. Jeff Miller 
(ranking member of the subcommittee) presiding.

 OPENING STATEMENT OF HON. JEFF MILLER, A REPRESENTATIVE FROM 
FLORIDA, RANKING MEMBER, TERRORISM, UNCONVENTIONAL THREATS AND 
                   CAPABILITIES SUBCOMMITTEE

    Mr. Miller. The chairman is just a few minutes delayed. We 
have a vote that is scheduled to come up very quickly.
    I am a member of the minority party, and ordinarily we 
would not begin a hearing or a brief with just a member of the 
minority party. However, I have a microphone, and I am going to 
ask for unanimous consent to allow me to begin the hearing 
until such time as a majority member arrives and can take the 
chair.
    Hearing no objections, we will begin the hearing. In fact, 
I will begin part of my statement and enter the balance of it 
into the record, because we are going to have a vote--a single 
vote--then go about 40, 45 minutes, have another vote, and our 
plan is to continue the hearing moving forward, and so we will 
not have to take a block of time out.
    But we have all realized a significant paradigm shift in 
our view of national security since entering the new 
millennium; and that is not to say that we haven't been faced 
with similar challenges in the past, and we have experienced a 
number of conventional conflicts in the last century, from 
World War I to Desert Storm.
    Guerilla warfare and insurgencies, counterinsurgencies have 
pocked the globe from El Salvador to Zimbabwe to Mongolia. 
Terrorism frequents nightly news reports and the daily papers 
with hijackings, bombings, hostage taking, and murders.
    While these conflicts ran the spectrum of conflict, our 
national military strategy continues--or continued to that time 
along Cold War lines of thinking, focusing on the need to 
respond to major conventional conflicts. Terrorism was treated 
as a law enforcement issue and national security 
responsibilities remained fairly well delineated among agencies 
with little crossover or communication.
    That bell signals the start of the first vote. The 
intention is that the chairman will go vote first and then he 
will come in and take my place while I go to the vote. And I 
will, without objection, submit my statement for the record.
    Hearing no objection, so ordered.
    [The prepared statement of Mr. Miller can be found in the 
Appendix on page 32.]
    Mr. Miller. And I would like to welcome our witnesses 
today: Mr. Alexander, from Longwood University; Mr. Dreifus, 
founder and CEO of Dreifus Associates; Mr. Robb, thank you, 
sir; and Mr. Hartung.
    I do not know if there is a--if you, among yourselves, have 
flipped a coin as to who will begin, but please, if you wish, 
you may--I believe we will start alphabetically with Mr. 
Alexander. Bet you got that all your life, didn't you?
    Mr. Alexander. Yes, sir. It didn't help me a lot; it helps 
in the reverse. I usually get the worst jobs because I am 
first.
    Mr. Miller. Thank you, sir.

   STATEMENT OF BEVIN ALEXANDER, ADJUNCT PROFESSOR, LONGWOOD 
                           UNIVERSITY

    Mr. Alexander. Mr. Chairman, I am going to make a very 
short presentation which outlines the principle points of the 
paper that I presented to you. There are six points.
    Number one: The world has moved entirely away from 
conventional warfare because the Global Positioning System, or 
GPS, permits weapons to be guided with complete accuracy to any 
point on earth.
    This has ended the possibility of concentrating military 
forces because mass troops become easy targets. Soldiers no 
longer can survive on traditional battlefields.
    Point number two: Military formations today must be small, 
well trained, well armed, mobile, and stealthy. The Army must 
be subdivided into combat teams of only a couple dozen or so 
soldiers each.
    These teams will be extremely lethal, however, because they 
can call in powerful weapons on any target. Warfare in the 
future will be waged by these small combat teams working in 
coordination with other teams, all connected within a network 
of computers, radios, and television cameras that will provide 
instantaneous communications and quick delivery of bombs and 
missiles.
    Point three: Because of GPS, military elements must 
disperse widely over the landscape. Dispersion has eliminated 
the main line of resistance, or MLR, that was a central element 
of warfare in the 20th century.
    The model of warfare in the future will be indirect strikes 
against targets that are ill-defended or not defended at all. 
In other words, attacks will avoid enemy strength and strike at 
enemy weakness.
    Point number four: Indirect surprise attacks and ambushes 
were the original forms of warfare, going back to the Stone 
Age. They are the only types of attack that will be successful 
in the future because direct, obvious attacks can be stopped by 
GPS-delivered bombs, rockets, and missiles.
    Point number five: Strikes from the air will be delivered 
primarily by attack helicopters and unmanned aerial vehicles, 
or UAVs, such as the Predator and the Reaper, a more heavily-
armed cousin of the Predator. UAVs cost much less than manned 
aircraft, like the F-22 Raptor fighter plane, and long-range 
bombers. They can operate much closer to combat teams, they can 
hover over an area and pick out targets with greater accuracy, 
and they can deliver powerful rockets or other weapons.
    Drones are already the weapons of choice in Afghanistan. 
Predators and Reapers are flying 34 patrols a day in Iraq and 
Afghanistan. They are transmitting 16,000 hours of video each 
month, some of it directly to troops on the ground.
    Point number six: The U.S. military today is still largely 
structured to face the conventional armies that existed in the 
20th century. This must change. We must return to our oldest 
and most successful form of combat: indirect guerilla-like 
warfare conducted by small, nearly invisible teams.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Alexander can be found in 
the Appendix on page 34.]
    Mr. Miller. Thank you, sir.
    Mr. Dreifus.

    STATEMENT OF HENRY N. DREIFUS, FOUNDER AND CEO, DREIFUS 
                     ASSOCIATES, LTD., INC.

    Mr. Dreifus. Good afternoon. Thank you, Mr. Chairman.
    I also have a statement that I would like to submit, and I 
have just a few points that I would like to make. First, Dr. 
Alexander, I believe sums it up very, very acutely and 
correctly. Everything we know about war is changing. And in 
fact, I would posit that we are now in the Internet age of war, 
which is even more asymmetric, it is rapidly evolving, and it 
is very dynamic.
    It is dynamic because it is not just a traditional 
battlefield; it is a virtual battlefield. There is going to be 
a new high ground, which we need to learn about and gain its 
advantage.
    It is also propelled by a war of ideas moving at speed that 
touches billions of people--and I mean billions of people--in 
literally milliseconds. It does not care about sovereign 
boundaries. It is leveraged, and a battle can begin and end in 
the blink of an eye.
    The electronic subversion of Estonia--and just before 
Russia went into the Republic of Georgia--they were electronic 
attacks that preceded a physical attack, in the case of Russia. 
That is going to be the new rule and not the exception.
    We are already at war. Imagine one morning--and this is not 
that farfetched--that you wake up and you cannot use or trust 
the Internet. E-mail and other services we take for granted are 
not going to be there for us when we want to use them. Now, one 
hour of that may be a nuisance, but what happens when that one 
hour becomes one day, and one day becomes one week, and one 
week becomes one month? That will severely and massively 
disrupt our economy and our security.
    The Internet isn't just about e-mail. There are so many 
services today that use it that are behind the scenes that get 
the job done. TV, for example--when you turn on cable or 
regular TV, most of that information is actually digitized 
Internet information. When you make a phone call, the backbones 
of our networks are Internet. Banking, factories, using your 
charge card at a store--that is all relying on the Internet 
today.
    The economic consequences of losing this kind of capability 
are far greater than the current global economic crisis. A loss 
of the productivity alone--we lose that Internet--will be much 
greater on our Gross Domestic Product (GDP) than the current 
economic crisis.
    What is important to note here is that all the fighter 
planes, the submarines, the guns, the tanks, everything we have 
got in our arsenal, doesn't help us fight this war. A $200 
million, $300 million F-22 Raptor gives you no benefit in 
defeating this kind of threat.
    I will also posit that this is not just a problem of 
defense alone. This has to go across other agencies and other 
parts of government and industry.
    We are at a disadvantage in our country today because we 
have seams. These are seams across--not only inside defense, 
but seams across our government. There is high potential for 
friction, avoidance, divergence between agencies. There is 
infighting, there is conflict, and there is not a common 
vision.
    And in fact, our enemies count on us not being efficient as 
a whole of government. So what we really need is a whole of 
government, and it is easy to say but it is probably much 
harder to do.
    In addition, we also wrestle with an economic dilemma. How 
do we prepare and defend for these kinds of future threats, 
given we have a limited amount of resources and very high 
overheads? And as Dr. Alexander pointed out, we are looking at 
an Industrial Age Cold War model.
    If we are looking at it today, the conventional thinking is 
it is a 15-year business cycle, which means that tomorrow's 
technology that is going to be fielded is going to be fought by 
our soldiers and warfighters who are still in preschool today, 
and most likely these will be obsolete weapons and they will be 
combating a challenge and a threat that may not be there.
    What we have is also an idea that Defense thinks that 
bigger is better. I would suggest to the committee that faster, 
not bigger, is better. Faster is also less expensive.
    Today you have got a Hobson's choice: conform to the 
Defense Department you have or risk having nothing at all. I 
believe you need to change this from the Hobson model to a new 
model. Part of the way you do that is to embrace a digital 
mindset.
    Right now we think in an analog--an Industrial Age--
mindset. There is much we can do to fuse our agencies and our 
workforce; not just our military, but across the entire 
government. And using Information Age tools and applying them, 
whether it is wikis, and blogs, and even Facebook and social 
networking tools, that will make our government more efficient 
and more effective to fight this kind of enemy that attacks in 
milliseconds.
    The summary of my points are that the unconventional is 
already the conventional. Information travels at the speed of 
light, and so does our enemy. It impacts billions of people 
within seconds, and it is important to note that millions of 
people each day are joining the Internet and becoming online. 
It does not respect geographies and sovereignty.
    And we need to find and understand that new high ground in 
the digital battlespace. That is going to be challenging and 
dynamic, but that is what we have to do.
    I humbly suggest as a nation that our government needs to 
think differently and seamlessly. Quite frankly, an analog 
government in the digital age is rapidly becoming obsolete. 
Thank you.
    [The prepared statement of Mr. Dreifus can be found in the 
Appendix on page 42.]

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
 CHAIRMAN, TERRORISM, UNCONVENTIONAL THREATS AND CAPABILITIES 
                          SUBCOMMITTEE

    Mr. Smith. [Presiding.] Thank you very much.
    And I apologize for the comings and goings here. We have 
our budgets being debated today, which means every 40 minutes 
we have one vote, and it has got people moving around.
    And I apologize that we don't have other members here. They 
are dashing in between those votes as well. We thought it best 
to keep going instead of just breaking the hearing up to the 
point where we couldn't keep track of anything.
    So that is what we are attempting to do, and I appreciate 
your patience. And I do appreciate the witnesses being here. I 
apologize for being late.
    With that, we will turn to Mr. John Robb for your opening 
statement.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 31.]

        STATEMENT OF JOHN ROBB, WARFARE THEORIST, AUTHOR

    Mr. Robb. Well, thank you, Mr. Chairman, for the 
invitation.
    Thank you Mr. Natter and congratulations on the new job.
    My focus is on small group warfare and how small groups can 
leverage new technologies--networks--to take on nation states 
and win. We have seen a lot of innovation in the theory of 
warfare over the last five, six years, and we are about to see 
a big boost in that capability.
    One of the big reasons that things are going to become more 
difficult for us is that we are caught in an economic crisis. 
And my friend, Nassim Taleb, wrote a great book, ``The Black 
Swan,'' I recommend it. And we have been looking at the global 
system as a dynamically unstable system for quite some time 
that has been weakening nation states and their ability to 
control their borders, their finances, their economy, their 
media, et cetera. And this dynamically unstable system is prone 
to access.
    Unfortunately, we have added some bad feedback loops. We 
have added too much debt--not just in the U.S. government, 
across the board. We are running at about 350 percent of GDP in 
debt right now. That is above the 150 percent that is 
sustainable. It puts us about $20 trillion in the hole.
    Last time it peaked at this point it was 290 percent or so 
in 1929, and it got run down. That has to be taken out before 
things return to some semblance of normal.
    The other part is the derivative side, and I trained on the 
Street to, you know, do the derivatives trading. Luckily I 
didn't hop into Citi Bank to do that. But essentially it is 
just too complex.
    My brother-in-law runs--he is chief programmer for 
RiskMetrics, and, you know, I have always been debating him and 
telling him that his assumptions--his core assumptions--that he 
is writing into the software are basically incorrect. And that 
has essentially proven true over time.
    No one knows which levers to pull in order to stabilize the 
system. Until we get the financial system back to just simple 
vanilla options and basic economic instruments--utility status 
for banks--that complexity is going to, you know, drive us into 
the hole.
    So from my perspective, we are headed towards almost an 
inevitable global depression, and the impact on the government 
is, of course, smaller budgets. You know, I was at the 
Highlands Forum about a year or so ago and they asked me for 
outside-the-box projection. I said, ``Get used to operating on 
50 percent of your current budget 5 years from now. Get lean.'' 
Of course, they looked at me like I had bats flying out of my 
ears, but you know, knowing that the dynamic global system is 
going to come off the rails is giving me the kind of insight to 
project that.
    The other part is that as you see the financial systems and 
the economic systems of marginal states gutted due to the 
depression environment, you will see the growth in small 
groups, for motivations across the board, whether they are 
gangs, whether they are tribes, whether they are different 
flavors of Jihadi--whatever group that provides the services 
and security that keep people alive and progressing is going 
to, you know, step into the fold.
    And these groups are super-empowered with new technology 
being driven at the rate of Moore's Law, doubling in 
capability. That applies to biotech. You know, what used to 
take five Ph.D.s a week five years ago is done by a lab 
technician with a lab on a chip today.
    Access to networks we can find out exactly how to do the 
best Improvised Explosive Device (IED) production, and then 
access the global economy, which is a phone call away, as the 
Somali pirates just found out--you take a Saudi tanker, you 
call up the company that runs it, get money. Those groups are 
proliferating from Mexico to Pakistan to Nigeria.
    They are making money; they are getting better at warfare; 
they are operating using an open source fashion where they are 
coordinating their activities. And the innovation rates and the 
technologies and capabilities that they are fielding is 20 to 
30 times faster than we saw with the Irish Republican Army 
(IRA) and, you know, traditional groups.
    This depressionary environment--this economic calamity--is 
going to drive that trend line forward at a very rapid rate 
just at the very moment we have fewer resources to combat it.
    Thank you very much.
    [The prepared statement of Mr. Robb can be found in the 
Appendix on page 48.]
    Mr. Smith. I don't think I can say thank you. It is just 
too depressing. We appreciate your analysis, and I think there 
are certainly key lessons to be learned from that, and I think 
you are more accurate than less, certainly, in where we are 
headed and what we need to do, so I appreciate that.
    Mr. Hartung.

 STATEMENT OF WILLIAM D. HARTUNG, DIRECTOR, ARMS AND SECURITY 
               INITIATIVE, NEW AMERICA FOUNDATION

    Mr. Hartung. Yes. Thanks for the invitation to be here 
today. I am very interested to hear what my colleagues on the 
panel have had to say.
    I am going to talk almost entirely about resources. 
President Obama's new strategy for Afghanistan and Pakistan and 
fighting terrorism more broadly is going to be an expensive 
proposition, not only for additional troops in Afghanistan, 
additional economic assistance, and it is going to be in a 
context of a deficit that this year could reach $1.8 trillion--
we will stay over $1 trillion next year. So the idea of putting 
this on our great national credit card--the debt--does not 
really seem like it is an option for us.
    The drawdown in Iraq is going to be complicated; it is not 
going to be something that happens overnight. There is going to 
be costs for resetting the force. There is going to be expanded 
training missions. So I don't think we can look to that as a 
source of resources to fund some of the increases in these 
other areas.
    So I would argue the best place to find resources, so we 
don't ramp up the deficit, would be to restructure our national 
security budget--not just the Pentagon, but the State 
Department, development assistance, the whole range of civilian 
and military tools that we use to carry out our foreign policy. 
I think we need a dramatic rebalancing of how we spend that 
money.
    And in order to do that, I think there is some obvious 
places that we could cut weapons systems out of the current 
budget. I know the administration is, as we speak, 
contemplating just such cuts. I am encouraged that President 
Obama, at least for starters, stood up to the services' wish 
lists when they were hoping to ask for $50 billion, $60 billion 
more than he ultimately set as his top line for the 2010 
budget.
    And I think some of the places where we would cut would be, 
for example, you have F-22 combat aircraft in an era when our 
main adversaries in many cases don't even have an air force. We 
don't need to purchase the most expensive fighter plane ever 
built, which has limited ground attack capability, which takes 
funds away from other military and civilian priorities.
    The F-35, the next generation fighter, is being run ahead 
much too rapidly; it hasn't been tested yet. We may well buy 
$57 billion worth of F-35s before we have even finished 
testing, which just means any problem that comes up will have 
to be dealt with in some sort of expensive retrofit.
    The DDG-1000 Destroyer is going to come in at $3.6 billion 
each. I think that is an expensive way to have a ship that can, 
you know, put some ammunition and missiles onto land to support 
our troops. I think there has got to be a better way to do 
that. Likewise, the Virginia-class submarine--a lot of the 
missions that it has been tasked with I think can be done more 
cheaply with existing submarines with some adaptations.
    I think the biggest areas where we can save money are 
nuclear weapons where, in keeping with the president's goal of 
getting rid of these things all together and the practical 
steps to get there, we could probably save on the order of $10 
billion a year on operations and procurement costs. And I think 
in the short term one of the most important things we could do 
is forego spending money on new nuclear weapons factories, 
which the Department of Energy's National Nuclear Security 
Administration is proposing to do. That makes no sense at a 
time when we are going to be radically reducing nuclear force.
    Finally, missile defense: I don't foresee an instance where 
a country like North Korea or Iran is going to risk ending 
their country as they know it in order to launch a ballistic 
missile at the United States. Even if they chose to do so and 
they used simple decoys, the tens and hundreds of billions of 
dollars we have spent gives us no reliable expectation that 
this system is going to work.
    I think we could have a research program. We could look at 
mid-range defenses which, I think, have more promise, and I 
think we would be able to cut probably $7 billion a year.
    So in closing I would just say, you know, where should we 
spend this money? Secretary Gates has made a good point about 
the lack of balance in our security portfolio. He has talked 
about the need for more spending on the State Department. He 
made an interesting comparison. He said, ``Well, you know, it 
takes more personnel to run one aircraft carrier task force 
than we have trained foreign service officers.''
    So we have 11 aircraft carrier task forces; we only have 
one State Department. I think we have to start righting that 
imbalance.
    The president has talked about doubling foreign aid by 
2015. I think that is a worthy goal. And yet, he is already 
running into problems in the Congress about whether this is the 
time to do that, can we afford to do that? And I think there is 
obvious--and some of the areas I talked about where we can find 
funding to do that.
    I think, finally, on a smaller scale, the aid program for 
Pakistan that has been proposed, $1.5 billion a year for 5 
years, is relatively small amount compared to the savings we 
could get from cutting unnecessary weapons programs. So I think 
that is a good summary of my prepared statement, and I look 
forward to the discussion we are all going to have.
    Thank you.
    [The prepared statement of Mr. Hartung can be found in the 
Appendix on page 52.]
    Mr. Smith. Thank you. I want to follow up on that 
particular point, because I very much agree with you, that is 
one of the battles we fight in this committee is on the 
resources and the funding.
    You know, we have got a lot of the big, expensive programs, 
and you have mentioned, I think, the million highlights on 
that, whereas, on the other hand, if we are going to be 
fighting more irregular types of warfare there are other places 
that we need to spend our money--on our special operations 
forces, on human terrain teams, on asymmetric warfare, cyber-
security, a bunch of different areas.
    I guess the challenge that always comes back is the 
potential threat from Russia and China. I mean, I have my own 
personal answer, and that is that diplomatically, you know, we 
need to find a way to peacefully coexist with those countries, 
and I don't see any reason in the current environment why we 
can't.
    But still, it drives much of what we do at the full 
committee level. You know, we are constantly getting updates 
on, ``Here is what, you know, here is what Russia is talking 
about building. China is building submarines. You know, they 
are going to build the--we have to build the F-22 to respond to 
whatever it is they are building.'' And fundamentally I don't 
accept that analysis, but I am curious how you would counter 
that argument in terms of what we need to do, and I see Mr. 
Robb seems to have an interest in this as well, so I would be 
curious in any other comments from any of the other panelists 
on that subject.
    Mr. Hartung. Well, I think one thing to consider is that 
the same economic pressures we have are coming down, I think, 
in multiple fashions on Russia, on China. I think if we can 
work together cooperatively to deal with some of the economic 
problems of the world, to deal with things like climate change, 
to find some constructive areas, I think that will help dampen 
down the military competition.
    I also think that for the most part we still have 
significant technological edge. I think in the case of China, 
at the most seem to want to be maybe a regional player, not a 
global threat to the United States. I think Russia still--
especially with unpredictable oil prices--I don't think really 
has a very predictable ability to invest substantially and 
consistently in its military forces.
    And I think to the extent that President Obama reaches out 
on things like nuclear arms control through the kind of meeting 
he had with Mr. Medvedev just the other day, I think we have 
ways to leverage these things politically and through economic 
relationships so that we don't have to run a sort of 
traditional arms race. And I think if we try to do that we are 
going to miss, you know, the real threats that we face.
    Mr. Smith. And I think that is one of the critical policy 
choices that we face, is to avoid getting into that type of 
arms race with two countries. And neither country, at this 
point--China or Russia--has an expansionist approach.
    It is not like the Soviet Union when they were trying to 
find client states all over the world, you know, and to build 
up their ideology and their military reach. I mean, mostly, you 
know, China in particular is trying to expand their economic 
influence, but we can compete with them on that without an F-
22.
    Mr. Alexander, you have a comment?
    Mr. Alexander. Mr. Chairman, I think the point that has 
been made about that is quite interesting. However, I want Mike 
to make a point that hasn't been made so far, and that is that 
we can not fight a war against a nuclear power. We are never 
going to be able to fight a war against a nuclear power.
    There is not possibility of us ever fighting a war against 
China or the Soviet Union, because the possibilities of 
engaging in such a war are so devastating that they are never 
going to happen. So the only way we are going to fight these 
countries, if we have to fight them, will be by surrogates. So 
the idea that we have to set up defensing programs to defend 
against a submarine of the Chinese, for example, or a aircraft 
of Russia is absolutely false.
    We do not have to fight these countries because we can not 
fight these countries, and we will never be able to fight these 
countries.
    Mr. Smith. Mr. Robb----
    Mr. Robb. No. I agree with that, and that, I think, was a 
point from my friend, the historian, Martin Van Grebald. He has 
written about that extensively. I agree with that.
    I think the big problem with China is not that it would be 
a peer competitor, it is that it rests on a very thin measure 
of legitimacy, its ability to deliver growth--economic growth--
to its middle class. And now that is gone. Mercantless powers 
like China are getting hit--they are getting devastated by this 
depressionary environment. And that fear we should have 
relative to China is that they will fall apart in a disorderly 
way, and that is all small group stuff, for the most part--
small group warfare.
    Mr. Smith. Absolutely.
    Mr. Dreifus.
    Mr. Dreifus. Thank you, Mr. Chairman. I agree with my 
colleagues here on the panel. It is not just China falling 
apart. It is Russia falling apart. How close are we to that 
trip wire where we see Russia unwind?
    And quite frankly, the point about looking at the kinds of 
weapons we have, I think you have to look at the entire 
portfolio and say, ``What is it that we are going to need in 
this new era, this new age of warfare,'' and saying, ``Are any 
of these things the kinds of weapons we need?''
    Because if they are not, then what are they and what are 
they going to be to better defend this country? And quite 
frankly, if it is a 15-year business cycle to get them into 
place, the current construct and model isn't going to get us 
there fast enough.
    Mr. Smith. Absolutely. Thank you very much.
    I have more questions, but I will do those in a second 
round. And we will call on Mr. Miller.
    Mr. Miller. Thank you, Mr. Chairman. And thank you for your 
indulgence; apologize, again, for having to depart a few 
minutes ago.
    Mr. Alexander, would you say that the United States should 
completely ignore near-peer conventional capabilities?
    Mr. Alexander. Should we completely ignore what, sir?
    Mr. Miller. Near-peer conventional capabilities.
    Mr. Alexander. I don't understand the term ``near-peer.''
    Mr. Miller. The identical capabilities that our peers may 
have.
    Mr. Alexander. In other words, they have equal weapons to 
our own?
    We do not have to fight an enemy with equal weapons, 
because there are no countries with equal weapons to ours in 
the first place. And the likelihood of China, for example, 
developing these weapons is nil. Russia is in the process of 
upgrading its military, but it is nowhere close to being peer 
to the United States.
    So I don't see there is any possibility of there being any 
near-peer confrontation. And what I said just a moment ago is 
that we can't fight them anyway. There is no possibility of our 
fighting these countries because if we lose--we found this out 
in the 1962 Cuban Missile Crisis--if we find ourselves in a 
position of losing to a conventional power we will always use 
the atomic weapon. And the same would apply to Russia and to 
China.
    So for that reason, it is impossible. So it is an illusion 
to think that we will ever be able to fight another country on 
conventional warfare. Conventional warfare can no longer be 
fought for that very reason.
    Mr. Miller. Thank you. Any other comments?
    Sir.
    Mr. Dreifus. At the risk of being controversial or 
unconventional in thinking, when you talk about near-peer you 
are talking about, you know, like weapons. What happens in the 
case where they are using un-like weapons, and those are 
weapons that may cost hundreds of thousands of dollars, or $50 
million, or use Federal Express as their delivery 
infrastructure for a biochemical or some other attack of our 
nation?
    Those types asymmetric attacks, I don't think that we are 
even in the same league of thinking about in peer-to-peer kinds 
of combat. And that creates a different kind of thought process 
as you look at trying to defend against these new kinds of 
threats. It is not the big countries that necessarily are going 
to be the problems; it might be organizations that aren't even 
a country that are going to create the new challenges that face 
us.
    Mr. Miller. Thank you, Mr. Chairman, and I will yield back.
    Mr. Smith. Thank you.
    Mr. Marshall.
    Mr. Marshall. If I might, Mr. Chairman, I thought that the 
title of this hearing was intriguing and certainly wanted to 
come down and read the materials and listen to the witnesses. I 
was wondering how the panel was gathered and the purpose of the 
hearing. Was it to hear truly unconventional thoughts about how 
we ought to organize ourselves?
    Mr. Smith. Yes. These are people who look at the future of 
warfare, not the present, and the premise of the hearing, 
basically, is that we are in a transitional moment in terms of, 
you know, where we are going in terms of our military threats, 
but we are still, to some degree, stuck in the past, focused on 
a conventional, you know, peer-to-peer war that many of our 
weapons systems and many of the ways that the DOD has organized 
is around that philosophy, and that we need to change that 
philosophy.
    It is of particular interest to this committee because, 
well, we have jurisdiction of the Special Operations Command 
(SOCOM), which does a fair amount of unconventional warfare, 
but we also have jurisdiction on cyber-security, I.T., and 
science and technology and the future of where the military 
needs to go. So since we know--I think; there are those who 
disagree--but since we know that we are not going to be where 
we were, where are we going to be and how do we need to equip 
our military to confront those threats? That is the main 
purpose of having folks who have studied those areas.
    Mr. Marshall. Thank you for that clarification.
    Now, I guess I would ask whether or not the panel is aware 
of people who purport to have expertise like you have who have 
a difference of opinion concerning how we ought to organize 
ourselves for future combat. In other words, are there people, 
Mr. Alexander, who differ with your view about appropriate 
resource allocation and preparation for--realistic preparation 
for the conflicts this country might have?
    Mr. Alexander. In other words, are there other people--
specialists in this field--who differ from this position?
    Mr. Marshall. Yes, sir.
    Mr. Alexander. I don't know of any, sir. I mean, it strikes 
me, we are dealing with a set of facts. And the set of facts 
are that the wars that we are fighting now are not going to be 
the wars that we fought in the 20th century. We cannot fight 
those wars any longer.
    Therefore, the set of facts that we are facing are pretty 
elementary. There are no arguments, as far as I can see, with 
any of us as regards what we face. The question is, how do we 
restructure the military in order to do it?
    Mr. Marshall. So you see no likelihood of a Desert Storm-
type of conventional fight--it was brief, but you see no 
likelihood of that?
    Mr. Alexander. We haven't fought a conventional war since 
Korea. The United States has not fought a conventional war 
since Korea. All the wars that we have fought since Korea have 
been unconventional wars, and we fought an asymmetrical enemy--
every single one of them.
    And we are trying to fight these wars, still, with a 
structure that was based around the World War II, Korean War 
paradigm, and that is not the way we can fight these wars. And 
the point I guess I am trying to make is that we have not been 
doing that for over half a century.
    Mr. Marshall. So you see no possibility of conflict--
military conflict--with China. You think that if there is a 
conflict, that it will be surrogates?
    Mr. Alexander. It would have to be surrogates, yes, sir. We 
fought--and I was in the Korean War. I spent a year and a half 
in Korea, and I am quite familiar with the Chinese. And we 
fought a conventional war against the Chinese. We actually lost 
that war.
    The reason we lost it was because we were fighting with our 
conventional weapons and they were fighting us with 
unconventional weapons, and we basically sacrificed our air 
power and our artillery, which was superior, to their bunkers, 
which were superior to our artillery. So we were fighting, 
essentially, an unconventional war even then.
    But the fact is that as far as I can see, there is no 
possibility whatsoever of us ever fighting a war with China 
because once we ever get into a conventional war with another 
country--that is assuming that there are such armies that 
exist, and they do not--but if they ever did exist, then we 
would instantly enter into a stalemate, and the stalemate would 
end any possibility. And what would then happen, if one side 
then became ahead, then the other side would elect for an 
atomic bomb.
    And that is why we can never fight that war. And anybody 
who is looked at the military knows that this is absolutely the 
facts. There is no argument as far as I can see in anybody--any 
of my peers--who contest that argument whatsoever. We have had 
mutually assured destruction since 1962.
    Mr. Marshall. So if there is going to be a fight, you know, 
by surrogates.
    Mr. Alexander. Yes, sir.
    Mr. Marshall. Can you give an example of what that might 
be?
    Mr. Alexander. Well, we had one in Georgia just the other 
day, didn't we? We had a case where Georgia was trying to oust 
Russia from the territory that they had occupied in Georgia. 
Now, they attacked--they tried to do it in a direct, 
conventional way and they got socked in their nose, like quick, 
and their army disintegrated in no time at all.
    Mr. Marshall. Mr. Chairman, are you going to let me go on, 
or do you want to just hold----
    Mr. Smith. I think I would like to keep it to five minutes 
so we can get to everyone. We will come back through.
    And if I may, just in following up on your question, there 
is considerable disagreement about what the implications of all 
of these changes mean, and I think these four gentlemen in 
their opening statements certainly had differences about where 
we should go, how we should restructure the military in light 
of the changes.
    What I think--and I agree with Mr. Alexander--what there is 
no dispute about is that asymmetrical warfare has become vastly 
more important than it was, and conventional warfare vastly 
less important, and how do we change and restructure?
    And there is a lot of difference of opinions on this 
committee and elsewhere about that, and that is what we are 
trying to get to.
    I think Mr. Thornberry is next.
    Mr. Thornberry. Thank you, Mr. Chairman.
    I appreciate you all's indulgence as we come and go because 
of votes. But let me ask this: I have heard from a number of 
people that essentially great power warfare is obsolete because 
of nuclear weapons. Does that mean that, given back to some of 
what is in the news today, if our nuclear deterrent is reduced 
to a certain level, does that put great power warfare back on 
the table, or is there a threshold that we need to maintain to 
kind of keep that tamped down, I guess, for lack of a better 
way to put it?
    Mr. Hartung. Well, I would say we have quite a ways to go 
before we would reach that point. A lot of people who have 
supported President Obama's call for a long-term effort to get 
rid of nuclear weapons have talked about something like 1,000 
weapons, maybe 600 deployed, 400 in reserve, which would be 
more than enough to deter any country from thinking of 
attacking us.
    I think where you get into a problem is if you are going to 
want to eliminate nuclear weapons all together, what kind of 
political arrangements, what kind of security arrangements, 
what kind of verification arrangements would you need to assure 
yourself that that would be workable? So I think that is a 
question for down the road; not that we shouldn't think about 
it now if we are going to--if these things are going to be on 
the table, but I think in the foreseeable future our deterrent 
will be there even in the context of the kind of reductions 
that President Obama and Mr. Medvedev may come to in the next 
couple years.
    Mr. Thornberry. Let me ask you, Mr. Robb, because I read 
your book a year or two ago and enjoyed it, but it makes me 
think--when I listen or read some of you all's testimony, it 
makes me wonder which is the cart and which is the horse, in a 
way. Because we talk a lot about, ``Well, we don't need the F-
22 or this that or the other system,'' but as one person 
described it in another hearing about a month ago, we seem to 
buy stuff and then formulate a strategy from it rather than 
formulate a strategy and then buy stuff that fits within that 
strategy.
    But I just talked to a father yesterday who was darn glad 
we had some armored vehicles in Iraq, even though that was a 
counterinsurgency, because it meant his son had his ankles 
damaged rather than have his, you know, legs blown off. Help me 
a little bit here. Given what you know about our system--we are 
not really changing the system if we say, ``Cut that airplane 
and that Army vehicle,'' are we? Don't we have to start at this 
from the beginning? And where is that?
    Mr. Robb. Well, personally, I am very much the cynic and I 
am certainly outside the system as you can be. I mean, I am 
starting companies in the tech sector, so----
    I personally don't think the system can be reformed, given 
its size, and the amount of money being spent, and the number 
of people involved. I had a couple brushes with the contracting 
space, and it is byzantine and tremendously, you know, awful. I 
couldn't see it actually working in the real commercial sector, 
but--and that being said, and I am not trying to be obtuse 
here, but you know, if there is a downdraft in the economy and 
we do go towards a depressionary environment, the amount of 
budget cuts that will inevitably follow may open opportunity to 
relook at how we are structured.
    You know, I would like to see, obviously, strategy driving 
weapons procurement, and you know, I have looked around the DOD 
for, you know, where strategy is actually, you know, trying to 
be developed, and I can't find much. We don't really have much 
of a, you know, a think tank for military theory. We have bits 
and pieces of strategy being done in a variety of different 
locations, and I haven't found a place that really does high-
quality military theory.
    So I don't know if that is not--maybe it is not the answer 
you are looking for, or it is just----
    Mr. Thornberry. Oh, I am not looking. I mean, I am just 
looking at answers.
    Mr. Dreifus, do you have something?
    Mr. Dreifus. Thank you, sir. There are two points that I 
think are appropriate here to suggest. One is that the defense 
enterprise, as it is constructed today, is configured as an 
output-driven model--how many of this and at what rate of 
production?--as opposed to an outcome-driven model. And if you 
look at outcome, which is more of a business approach to how 
you solve problems--where do I want to end up and how do I get 
there the most efficient way--it is a very different type of 
engagement model.
    So the metrics that are used and applied in the convening 
of the defense approach, which is, as Mr. Robb also pointed 
out, a very tactical approach and not a strategic approach, 
puts us at an absolute disadvantage.
    And so what has to happen is, the culture that drives this 
way of doing business needs to be rethought, and rethought in a 
very dynamic way that says, ``If we really want to figure out 
where it is we want to go,'' if Dr. Alexander's position that 
we will never fight these kinds of wars again is where we are 
going to end up, it is having almost a Solarium-like rethink of 
this country's defense concept, and then how do we get there 
through very discreet and very actionable steps.
    Mr. Alexander. May I say something?
    Mr. Smith. Quickly, if I may. Sir, if I may, if you would 
do it quickly, I want to--we have got the five-minute rule----
    Mr. Alexander. I believe exactly what Mr. Dreifus says is 
absolutely correct. What I think we need to see is the reality 
that it is not the equipment that we are concerned about, it is 
the kind of wars we are going to fight that we are concerned 
about. I don't know that anybody at this table, and certainly 
myself, is talking about doing away with any of these weapons.
    I want to point out, to me the important factor is that we 
are not going to fight the same kind of wars that we fought 
before, and we need to organize our military in such a way. 
Now, your young man that you were talking about in Afghanistan 
who wants an armored vehicle--I think it is an absolutely 
valid--I entirely agree with him. He should have that.
    But that doesn't mean that we have to organize our military 
around protecting a young man in Iraq or Afghanistan; we have 
to figure out how we are going to structure our military to 
fight the future kind of challenges we face. And that, to me, 
is the great distinction.
    Thank you.
    Mr. Smith. Thank you very much.
    Mr. Ellsworth.
    Mr. Ellsworth. Mr. Chairman, sorry for being late. I am 
going to pass at this time.
    Mr. Smith. Mr. Conaway.
    Mr. Conaway. Thank you, gentlemen.
    If I could take interest in your comments, given that what 
we fought in Iraq, what we are fighting in Afghanistan, what 
would appear to be, over the relatively--future here is fights 
where it is conducted in and amongst noncombatants, civilian 
populations, where the government doesn't have a great deal of 
reach and you need an exquisite combination of State Department 
and, you know, nation-building, for lack of a better phrase, as 
well as the fighters and the folks who protect them. We don't 
have a good model to make that work.
    The president's new plan says he is going to send hundreds 
of State Department people into Afghanistan. I suspect that is 
going to be at the point of a gun. But how do we--can you 
configure a military-State Department force that can do what 
needs to be done with the bad guys and also do what needs to be 
done with the good guys, and not offend the good guys while you 
are getting the bad guys, if that makes any sense?
    Mr. Robb. One thing that I have found that is getting a lot 
of traction, at least mentally, among people who are doing 
development and stability operations is this idea of a 
resilient community focusing on the hyper-local, trying to 
build a community such that can produce most of its food, 
energy, and you know, defense within the confines of the 
community.
    Mr. Conaway. Yes. That is what we all want to do, but who 
does that? Is it a hybrid entity that would do that? Who does 
that?
    Mr. Robb. Probably it would end up being a hybrid entity. 
There is lots of great tech; there is lots of great 
methodologies that need to be brought together to be able to do 
that. And the boots on the ground actually dealing at that 
hyper-local level need to get more training and support in 
terms of being able to operate in a solo, you know, difficult 
decision-making environment.
    Go ahead.
    Mr. Alexander. The point that I don't think has been made 
very clearly here is that there is a total distinction between 
winning a battle or a campaign by military forces and the kind 
of operation to bring peace, or whatever you call it, after 
that. And we got very confused in Iraq on that, and there are 
two different kinds of problems that we face.
    The military problem is relatively simple; I think we know 
what we have got to do in order to defeat an enemy, and we have 
got the system now working, and I believe it is going to come. 
The question that you seem to be asking is, what do we do with 
that country after we have essentially conquered it, or taken 
it over? Well, that is a political----
    Mr. Conaway. Let me disagree with you, Mr. Alexander. I 
mean, we are going to have that issue exactly in Afghanistan. 
We can't bifurcate the two; we can't wait till we have wiped 
out the Taliban and al Qa'ida and then start, you know, helping 
these provinces rebuild themselves. You have got to do that 
concurrent.
    Mr. Alexander. You have to do it concurrently.
    Mr. Conaway. And you have got folks who aren't real good at 
toting weapons who need to be the----
    Mr. Alexander. I entirely agree with you, and we have to 
make a decision what we are going to do in every single case, 
don't we?
    Mr. Conaway. Right.
    Mr. Alexander. In the case, for example, of Afghanistan, 
are we going to build a nation or are we going to take down the 
Taliban and al Qa'ida? That is the question that we need to 
make a decision on as a nation----
    Mr. Conaway. Let Mr. Dreifus have a whack at it.
    Mr. Dreifus. Thank you, sir. I think what you are asking 
for is a type of engaged government person that doesn't exist 
yet. We are not looking for boots on the ground, per se. We 
might be looking for shoes on the ground, in some of these 
cases, where we are looking at generating sustained, enduring 
success in these provinces and these hyper-local scenarios. And 
that means fusing teams of military and non-military people who 
need to train together, equip together, and be given the skills 
to work together, which doesn't exist in this government.
    We have economic officers in the Commerce Department; we 
have the Trade Development Agency; we have the United States 
Agency for International Development (USAID); we have alphabet 
letters of many different organizations, but when do you bring 
them together? How do you converge them?
    Mr. Conaway. Exactly.
    Mr. Dreifus. And we need to teach and train that. And I 
think that is--it is not about warfighting; it is about 
peacemaking, and creating those enduring outcomes that are 
really measured by success in both military and, more 
importantly, non-military terms.
    Mr. Hartung. Yeah, I would just say, I think we need to be 
modest in our goals. You know, I don't think we are going to 
make Afghanistan into some sort of model democracy. I think 
aiming for stability is already a pretty high bar, and within 
that it is clear to me that we need more civilian resources, 
but I think you are absolutely right, how we configure those, 
how they work together is--I think really hasn't been clearly 
laid out.
    Mr. Conaway. I guess our point is, if we are looking 10 or 
15 years down the road, we want to--do we want to build that 
capacity? And we are not going to have it in Afghanistan, 
because we are too far into the ruckus now to make that happen.
    I guess if you could get the Peace Corps and the 101st 
Airborne to train together and deploy together we will be in 
great shape.
    I yield back, Mr. Chairman.
    Mr. Smith. No, I think that is a very, you know, compelling 
point, and it gets to the resource issue. And following up a 
little bit on what Mr. Thornberry said, I mean, you could even 
go, I mean, up to the F-22 and you can sort of look at it and 
say, you know, within Afghanistan and Iraq and what we are 
doing right now, you know, what good is that?
    But if we are looking at, you know, a future conflict with 
Iran or a future conflict with North Korea, they have surface-
to-air missiles that could threaten air dominance, and we are 
able to do what we do--I mean, we just--we take air dominance 
completely for granted now, the idea that we wouldn't be able 
to fly a military plane anywhere we want within our military 
zones. It is just something that is, you know, totally assumed.
    Future conflicts might have a different situation. And 
don't get me wrong, I am looking for places to save money, for 
all the reasons that Mr. Robb outlined. We just lost about $16 
trillion, so we are a little short at the moment, you know, but 
I think we also have to be mindful of what the challenges are 
out there, and it is not as simple as saying, ``Well, we are no 
longer fighting a conventional war so we no longer need 
conventional weapons.''
    And I understand, Mr. Alexander, that it is not your point. 
But I think it is worth making, that we still have to, you 
know, make that consideration, which bleeds into what Mr. 
Conaway was talking about. Which was, okay, if we are still in 
a situation where it is conceivable that we are going to need a 
top-of-the-line fighter for air dominance, that we are going to 
need, you know, the Stryker vehicles, for instance, that have 
given our brigades--combat brigades--far greater capabilities 
than they have ever had before, we are going to need all that 
stuff. And oh, by the way, we are also going to need to build 
the 101st Airborne-Peace Corps. I think we will let you take 
ownership of that, and we will generate that unit.
    You know, but it is on point. I mean, it is something that, 
you know, when we went into Iraq and there was, you know, the 
argument about, you know, we just spent an election campaign 
talking about how we are not going to do nation-building, we 
are not going to do peacekeeping, and Mr. Rumsfeld was very 
pointed about saying, ``That is not what we do; that is not our 
mission,'' all right?
    Then we got into Iraq and he wanted complete control over 
that mission with his military that wasn't trained to do that 
and didn't do that. And I don't think, ideally, anybody who 
spends any time around the military would say, ``That is what 
we ought to train our military to do.'' I mean, they are going 
to have to do pieces of it, but I think if you are looking at 
the classic nation-building peacekeeping mission, you are 
talking far more, you know, development people, State 
Department people, justice people, agriculture people stuff 
military doesn't do, but then you are talking about a hell of a 
lot of money. I mean, our military is incredibly capable right 
now, but it is incredibly expensive.
    So if all those other entities that I just mentioned have 
to be close to as capable, we don't have that kind of cash, 
which is a very long way of walking around, if we are looking 
to save money--looking to save right now, and not just limiting 
it to the Defense Department--if we are talking about--for all 
the different pieces, what is the most cost-effective way to do 
this--with one final point--admitting that one of the most 
cost-effective ways to do this is to get out of the business of 
doing it, is to find a way where we don't believe that our 
national security is completely dependent upon showing up in 
the middle of some godforsaken country and taking it over and 
being responsible for it for the next 50 years.
    How do we make all of that come together? Mr. Dreifus, I 
will----
    Mr. Dreifus. Yes, sir. Thank you, Mr. Chairman.
    There are two points I think you could use here very 
constructively. First is, you have got one other weapon in the 
arsenal, and that is American industry and industries in the 
region where you are working. Economic security is one of those 
legs of this challenge, and to bring business along with that 
provides an enduring outcome in that country is something which 
doesn't cost the government anything and can create a long-term 
better future. Again, what are they looking for in these 
countries? That there is hope, there is stability, there is a 
better future for them, and a better outcome.
    The second point that I think is important is understanding 
how to prevent having to go into these places, to detect early, 
before a country or a part of the world gets into trouble, and 
having other types of interventions. And so prevention is a lot 
less expensive than the cure.
    Mr. Smith. Amen to that. And I will just say that I think 
those are a couple areas that we have this--I mean, as much as, 
you know, the counterinsurgency stuff at the Special Operations 
Command (SOCOM) does in areas before they blow into full-
scale--I can't say that word, so I won't--conflagration--I 
always get the syllables mixed up there. We have got SOCOM out 
there doing it, and a couple dozen of them, you know, can make 
a huge difference in a country, as opposed to having 175,000 
troops in Iraq.
    Connected to that is something that I am very concerned 
about our government right now: We don't really have a global 
development strategy. We spend an enormous amount of money on 
global development in a variety of different ways, but it is in 
a very chaotic, nonstrategic way that is ineffective.
    If we did that better--to some degree that is one of the 
thoughts behind the Millennium Challenge Corporation, is that 
it would go in and work with the country to try to not just 
give them money, but to go in and try to help them develop an 
overall, you know, development strategy to keep their country 
from falling apart for a relatively small amount of money.
    Mr. Miller? Okay.
    Mr. Marshall, we are back to you already.
    Mr. Marshall. That didn't take too long. All right, back to 
the surrogate question, and you picked Georgia as an example--
pretty remote; we didn't get involved. Can you imagine a 
surrogate fight where we might be involved and, for example, we 
have already mentioned this, would be very interested in 
providing air dominance for our surrogates on the ground or for 
our forces on the ground?
    Mr. Alexander--Dr. Alexander.
    Well, I asked you during my last line of questioning to 
imagine surrogate fights of the future, since you have decided 
we are not going to have a fight with China directly because of 
the problem with nuclear weapons.
    And the surrogate fight in the future that you mentioned in 
your testimony and you mentioned a minute ago was Georgia. We 
didn't get involved in that. Let us assume we do get involved 
in a surrogate fight in the future. We are going to want to 
have air dominance; we are going to want to put our people on 
the ground and be able to protect them.
    You describe a world in which military units are not going 
to be able mass because precision weaponry will simply destroy 
that unit if it masses. So we are going to want a world in 
which nobody can use precision weaponry against us--we are 
effectively able to stop the precision weaponry, we are the 
only ones with the precision weaponry. Is that a world that is 
too far?
    Mr. Alexander. Well, I don't see that we would be the only 
ones with precision weaponry. I think that the rest of the 
world can develop precision weaponry just as well as we.
    Mr. Marshall. And we won't be able to develop counter 
measures?
    Mr. Alexander. Could they develop counter measures or could 
we?
    Mr. Marshall. We have attempted as best we can to maintain 
our technological edge because we are not going back to 
Industrial Age warfare, and if we did there is no way we are 
just going to throw hundreds of thousands of American young men 
and women into harm's way and just lose all kinds of--we are 
just not going to do that, and we know we are not going to do 
that.
    So we attempt, as best we can, to maintain significant 
technological advantage over our enemies, and that includes 
both the ability to hit and strike and the ability to develop 
counter measures that keep them from being able to hit and 
strike us in return, which means we spend a lot of money on 
things like the F-22, et cetera, with the idea that we will be 
able to maintain that capacity.
    Mr. Alexander. I don't think the F-22 would necessarily 
affect that. What we are going to have to do in terms of 
defending against a technologically advanced country that might 
want to attack us, we want to develop a weapon that will do 
that. Well, the F-22 Raptor is a fighter plane, and it has a 
tremendously effective role as a fighter plane if you are 
fighting other countries that have fighter planes or have 
targets that a fighter plane could strike.
    If you are talking about the surrogate situation that you 
mentioned--let us take a case that we do know about----
    Mr. Marshall. If I could interrupt--now, it seems to me 
that Russia and China are going to continue to develop--they 
are continuing to develop their own fighters, which will be 
available to their surrogates, and so if we sit back and do not 
develop, the next generation of American fighters that have a 
technological edge over the next generation of Chinese or 
Russian fighters, we are essentially conceding air dominance to 
whoever the surrogate is representing those two countries. Is 
that not correct?
    Mr. Alexander. If we assume that we will be fighting using 
those kind of aircraft. I don't believe----
    Mr. Marshall. We are assuming that air dominance is 
something that we are interested in. You have posited the 
possibility that if we get into a fight with one of those 
superpowers, those who could conceivably contest our air 
dominance, it will be through surrogates. They will want to 
provide air dominance for their surrogates. That is a no-
brainer, it seems to me.
    And so we are in this posture of trying to anticipate the 
ways in which they will seek to support their surrogates in 
combat against our surrogates, I guess----
    Mr. Alexander. I suspect that if we get a situation like 
that, that the aircraft that they will be using against us will 
be UAVs, not a F-22. And I suspect that the--for a number of 
reasons. One reason is it is a whole lot cheaper, and the other 
is that it is a lot more effective.
    So the idea that an extremely advanced fighter plane is 
going to be the wave of the future, I don't think that is 
correct. I think the wave of the future is a Predator.
    Mr. Marshall. So we are on the same page, in the sense that 
we can anticipate the need, whether it is by developing some 
other platform besides the F-22--maybe an unmanned platform--we 
can anticipate the need to continue technological development 
that assures our air dominance.
    Mr. Alexander. Yes, sir. I think we definitely have to do 
that. And I think we should always try to be the extreme top 
nation in the world in terms of technology. We have it now and 
I think we need to keep it. But the weapons that we are going 
to do it with are not the weapons that we have today.
    Mr. Hartung. Well, I would just add----
    Mr. Smith. Oh, I am sorry.
    Mr. Hartung [continuing]. To the extent that there is 
surrogate warfare, it is going to be asymmetric. It is going to 
be guerilla warfare, it is going to be trying to get ahold of 
weapons of mass destruction. I don't think it is going to be 
kind of air force-on-air force and army-on-army, so I think 
some of these capabilities will be less relevant than they 
might have been in a different time period.
    Mr. Smith. Mr. Marshall has a quick----
    Mr. Marshall. I appreciate that. It is somewhat similar to 
what we are facing now in Pakistan and Afghanistan. And we have 
decided that--I think rightly so--our objective is to deny al 
Qa'ida the space to sort of gather and develop its capacity to 
continue to do damage against the West. And in order to do 
that, air dominance is something that is critically important 
to us. I mean, you just can not survive in those territories 
without air dominance.
    So we can argue about whether the F-22 or some other 
platform is the correct choice, but we are going to have to 
concede that at least for the near term, we have got to spend a 
lot of money on air dominance. Wouldn't you agree?
    Mr. Hartung. Well, I don't know who we are dominating. I 
mean, the Taliban doesn't have an air force, Afghanistan 
doesn't have an air force----
    Mr. Marshall. If I could, I am going to--let me interrupt. 
You are right. They don't. The point is, if we don't have air 
dominance, we are in trouble. And it is conceivable that in a 
different setting, in a different part of the world, with a 
different relationship, we could have a surrogate of one of 
these superpowers that is providing air strength, and we don't 
have air dominance, in which case we are not going to be able 
to go in there or stay there very long.
    Mr. Smith. I am sorry. You are going to have to give like a 
15-second rebuttal, and then I have got to move on.
    Mr. Hartung. I think to the extent that we need that we 
should do it at $350 million a plane. I guess that is what I 
was saying.
    Mr. Smith. Okay.
    Mr. Thornberry.
    Mr. Thornberry. Mr. Dreifus, let me go back to where I 
think we left off--you all have to be a little flexible as we 
walk back and forth. As I understand it, it would be nice to 
have a strategy that would inform our acquisition and so forth, 
and I think you are last comment was, it requires a cultural 
change in order to achieve that.
    We hear that a lot, by the way, in not just the Department 
of Defense, but in other departments and agencies too. The 
first question is, okay, what do we put on our to-do list to 
create a cultural change?
    Secondly, this subcommittee had a hearing a couple weeks 
ago where it was suggested that a good--talking back about 
putting strategy first--a good model goes back to the--we ought 
to consider back to the Eisenhower days where his National 
Security Council (NSC) had a small number of people who did try 
to provide a strategic guideline at that overarching level, and 
then a separate group was focused on implementing.
    Can that help, not just with culturally, but provide that 
strategic framework that other things operate? Or do you have 
other suggestions?
    Mr. Dreifus. Thank you, sir. Let me answer the second 
question first, and that my help set the change in culture.
    First, it is a function of leadership. And if you look at 
some famous examples, Harvard case studies and so forth, of 
businesses that had to shift the way they did business, their 
whole fundamental model, either because their markets were 
ending or their business was in trouble, they had to change the 
way the did it.
    And they did it through leadership, and the leadership had 
to understand the value of corporate culture or organization, 
and using that as a tool to how to innovate that workforce. But 
that leadership has to have a strategy first.
    What President Eisenhower did in trying to grasp what the 
new threats were facing the country in the 1950s was to get 
that small group of people in the Solarium at the White House 
and put them to work and look at courses of action. I would 
argue that in this age that moves a lot faster than we do in 
the 1950s, that is something that needs to be a little bit more 
continuous and not something we do every 60 or 70 years.
    And so, reconvening a Solarium, or another name for a 
similar effort, with the leadership, but doing it now and doing 
it in a sustained way--again, keeping it small and keeping it 
focused on, what are the battles to come and where do we want 
to end up--will then drive the shift in the way in which we are 
going to engage. And some of the points that are made here 
about the types of wars we are going to fight, the types of 
tools we are going to use to fight those wars--where we are 
losing on the high ground, I think it is especially important, 
such as in the cyberspace, where we are not addressing with 
nearly the same level of veracity of investment, that is where 
the enemies will come. They will never attack us at our 
strengths; they will always exploit our weaknesses, just as we 
exploit theirs.
    So the first thing I would suggest is to empanel a 
Solarium-style effort. And I think that encompasses both the 
legislative and the executive branch in bringing the best minds 
to the table from wherever they come from. And then from there, 
that then becomes your beginning part of a new discussion about 
how you change the culture.
    And the culture comes down to the people that you put into 
those positions. The selection of the types of candidates that 
go into those offices and the job description and the 
objectives that you assign them, either by legislation or that 
comes out of the Solarium II, or whatever strategy effort or a 
combination of both.
    Mr. Smith. Thank you.
    Mr. Ellsworth.
    Mr. Ellsworth. Thank you, Mr. Chairman.
    I think my question will be for Mr. Robb. Mr. Robb, kind of 
following up on what we have been talking about, about the new 
kind of war with the State Department employees and the 
soldiers both--I was in a hearing, I am not sure if it was this 
subcommittee or another, that I was a little bit taken aback by 
some comments about the Iraqi people wanted more say in regard 
to the provincial reconstruction teams and wanted more input 
into what we were doing to help them out.
    I guess, like I said, I was taken aback that--are we over 
there building things that they don't want, don't need, just 
for the sake of building those?
    And I don't know if we have discussed that today yet, but 
like I said, it sure seems like that is something we would do 
is ask them--first things I think of are food, water, medicine, 
and shelter, and after that it is--we talk about prisons 
without other legs on the stool, when we don't have a court 
system or judges, and I guess--what are we--are we just over 
there deciding what we want to build? And maybe that is your 
area of expertise, and if you could explore that a little bit.
    Mr. Robb. Well, I have seen it, and I have analyzed it, and 
frankly, you know, going in at the high level typically doesn't 
work. Building high-level infrastructure has a horrible, 
horrible track record across the board. And if the projects 
don't, you know, fall apart naturally through mismanagement, 
all the money is whisked away in corruption.
    I saw that recently with decorations of Senator Clinton in 
regards to the reconstruction of Afghanistan and the $7 billion 
we spent there. And then also, these high-level teams typically 
end up being the target of attacks, like Contract International 
was a classic example back in 2005, where 60 percent of the 
budget went to security because they were being attacked on an 
ongoing basis.
    The way around that, and whether you are looking at 
counterinsurgency operations where you subdivide the country 
into inkblots, or you are doing stability operations, or you 
are doing development, is that the macro-level in a nation 
state typically doesn't work, and that its service delivery and 
its political goods delivery is very, very weak. The best way 
to fix the problem and get control of it is to start at the 
local and going towards the resilient community and getting 
organic growth of communities that can actually get things done 
across the board. And getting those technologies together and 
getting those methodologies together, being able to do that, 
you can go in and create centers of organic order.
    And you combine that in most of our instances where we are 
actually winning conflicts on the ground in unstable areas--
winning, quotation marks--is that we are not actually defeating 
those forces in military means or even through development, we 
are cutting deals with militias, which are another centers of 
organic order. And our ability to manage those militias, manage 
those groups on the ground is pretty weak.
    I mean, I suggested in the paper that we look at maybe 
taking a customer relation management system from the private 
sector, you know, the same sales management system that people 
use at IBM or whatever, just to maintain contact, you know--
what did you say to this, you know, this tribal chieftain or 
this person, you know, who is rising in the ranks in this or 
that militia so we have some kind of institutional memory, and, 
you know, take salesforce.com and six-month convert it, it is 
really short dollars.
    But we are maintaining this kind of management of, you 
know, 500, 600 militias inside of Iraq, and we are going to do 
the same thing in Afghanistan, and we are hoping to do the same 
thing in, say, in Pakistan, with the Frontier Corps and 
judicial militias. Talk about anti-Somali piracy, it is 
probably going to be coming down to, you know, hiring our own 
local militias to--not probably through U.S. dollars--Saudi 
dollars, Chinese dollars to go in and take the pirates up.
    But that is how you end up winning, and it is that 
management of the local. Does that help?
    Mr. Ellsworth. I think sometimes it seems like we build--
like the Hogan's Alley down the road at the FBI Academy, we are 
over there doing this, it looks nice, and it is the shell, but 
there is nothing really behind the walls. And that is a huge 
waste of our money. And I am sure the Iraqi people--and in the 
future, Afghanistan or Pakistanis--would resent us for that 
kind of interference and/or a that kind of help.
    Mr. Robb. Well, they also resent the guy who is in the 
Capitol. You know, they are supposed brethren and the like. So 
if you can bypass the big companies that want a big contract to 
do the big project in--you know, the U.S. companies, outlet 
companies that want to do those--and go straight to the local 
with that package of technology and methodology and practice.
    I mean, you know, you can grow food faster and better, you 
can produce cleaner water, and on the cheap now--a lot of great 
innovation. The technology to do things in a super-powered way 
is amazing, even in the developing situations. But there is 
really not much other infrastructure.
    Mr. Ellsworth. Okay. Thank you.
    Thank you, Mr. Chair.
    Mr. Smith. Thank you.
    Mr. Conaway? Okay.
    Does anybody else have anything to follow up on?
    I guess I have one question, applying specifically to a lot 
of the stuff you are talking about, to what we are doing in 
Afghanistan. And, you know, any of you who want to comment on 
sort of, you know, here is a smart approach, here is the not-
so-smart approach, here is how we can sort of restructure our 
military, restructure our approach there--how is Afghanistan an 
example of whether we are or are not learning some of the 
lessons that you all are talking about here?
    Anybody want to take a stab at that?
    Mr. Hartung. Well, I think it is way too early to tell. I 
mean, the fact that it has been going on longer than the Iraq 
War indicates that we have a lot of learning to do. And I am 
glad to hear the president maybe lowering the bar a little bit 
about what our objectives are. I am glad we are not viewing it 
as a, you know, primarily mission, that there is going to be 
other resources.
    But I think, as has been raised by some of the other 
members, it isn't really clear that we have a detailed strategy 
of how that is going to work. We don't even have a, you know, a 
good structure within the government of how to decide which 
threats are most important. Is it traditional military threats? 
Is it terrorists getting hold of a nuclear weapon? Is it HIV/
AIDS? Is it climate change?
    And to some degree, the military has taken on looking at 
all of those things because there is not an alternative 
structure across the government to look at them. So I think 
Afghanistan is still kind of a work in progress, and because, 
as was mentioned, we are already deep into it, I think it is 
going to be challenging to kind of change strategy and approach 
in the midst of the conflict.
    Mr. Smith. Anybody else----
    Mr. Robb.
    Mr. Robb. Yes. Personally, I would like us to leave. I 
don't think it is a winnable situation. You can take out 
terrorist camps from afar, you know, through Special Ops. You 
can work and buy local militias.
    A problem even in Iraq now, because our attention is off 
the ball, is that our agreement with the militias where we 
bought them, which is a fundamental break with 
counterinsurgency doctrine, because that says that everything 
you do in the country is towards enhancing the legitimacy of 
the host state--by cutting deals with people that aren't loyal 
to the host state, we broke with doctrine. So if we don't--part 
of that deal with those folks in Iraq, the Sons of Iraq, Anbar 
Awakening, whatever you want to call it, was that we would 
protect them from the Shia who were winning the civil war 2 
years ago, which drove them to the bargaining table with us, 
and we would arm them.
    And we are still arming them, but the pay isn't coming, and 
now that we are withdrawing from areas, they are vulnerable 
again to attack. So we could be back into the soup again with 
that, you know, in another couple months; it could go really 
quick. I mean, those guys were guerillas just before we cut 
those deals.
    Mr. Dreifus. I agree that we are--it is too early to tell 
in Afghanistan. However, I think that Einstein defined insanity 
as trying to do things the same and hoping for a different 
result when you repeat it, and what we may want to look at is 
using this as a strategic opportunity to think about how we 
engage this new type of fight with a new type of answer.
    And part of that goes to perhaps looking beyond the 
traditional, just asking the question of defense in the Defense 
Committee, but perhaps bringing more people to the table, and 
perhaps even forcing the issue of looking at it in a holistic 
way and asking other agencies to all get together in a unified 
way, explain to the Congress and likewise to their own 
strategic approach how they would go about solving the problem 
together.
    I see the point about maybe it is the Peace Corps training 
with the 101st Airborne as one extreme example, but it is 
bringing all the parts of the government together in order to 
solve a complex challenge.
    Mr. Smith. Thank you very much.
    Mr. Alexander. I agree with what Mr. Dreifus says.
    I would like to make a point about Afghanistan: If I 
understand what Mr. Obama said just the other day, that he is 
going after the Taliban and he is going after al Qa'ida, 
wherever they happen to be, that strikes me as being an 
imminently sensible way of looking at the problem. Now, I know 
that there is some mission-building involved in this, and many 
people have been commenting on that, but if we are thinking as 
our main goal to get rid of the danger, wherever it happens to 
be, I think we will be a lot clearer thinking in terms of our 
solutions.
    I understand the idea, and I agree entirely with the idea 
of putting the 101st Airborne with the State Department; it 
would be a great solution. But that is a decision we have to 
make as a nation.
    The problem we face at the moment is how to take care of 
these great challenges that we have in a military point of 
view, and I think that Mr. Obama's approach, if I understand it 
correctly, is exactly the correct way to do it. Thank you.
    Mr. Smith. Thank you.
    I think the challenge is--and I will close with this, and 
then if any other members have anything else--is that while I 
agree with both Mr. Robb and Mr. Alexander's sentiment that, 
you know, the idea--disrupt the networks that threaten us. That 
is what we want to do. That is simple, that is straightforward, 
and I think that is what the president articulated was the 
threat from this region is al Qa'ida and the Taliban that 
support them because they are developing, planning attacks 
against the West, and we want to disrupt them. And I get that.
    The problem is, and I think where we go down the slippery 
slope of some of these more difficult issues that we have 
explored is, okay, if you pull back and just do that and the 
Taliban take over southern Afghanistan, and Karzai is a 
nightmare, he doesn't have the support, so they are back in 
charge of Afghanistan shortly thereafter.
    And then if you want to spin the nightmare scenario out 
even further, you know, given, you know, the dysfunctional 
nature of the Pakistani government at the moment, it is not 
hard to believe that, you know, a Taliban-like group takes over 
there.
    And while we are pulled out letting this happen, all of a 
sudden the job of disrupting those terrorist networks becomes a 
hell of a lot more difficult because they have real live state 
sponsors, and that opens up a whole new batch of problems. And 
that is why it is not quite as simple as just pulling back from 
the other responsibilities.
    But I thank you very much for coming and testifying. I am 
glad that we have managed to avoid being interrupted by votes 
but the one time, and really appreciate your testimony.
    Before I close it officially, Mr. Miller--I want to thank 
Mr. Miller, also. I was neglectful; I didn't do that.
    Thank you for opening the committee in my absence. I 
apologize for that.
    And thank you very much, and we will certainly stay in 
touch with all of you as we work these problems. And we are 
adjourned.
    [Whereupon, at 4:55 p.m., the subcommittee was adjourned.]


=======================================================================




                            A P P E N D I X

                             March 11, 2009
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 11, 2009

=======================================================================


    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                  <all>

</pre></body></html>
